                             AUDIT OF SBA’S
                     INFORMATION SYSTEMS CONTROLS
                            FISCAL YEAR 2003
                        AUDIT REPORT NUMBER 4-19

                                     APRIL 29, 2004




This report may contain proprietary information subject to the provisions of 18 USC 1905 and
must not be released to the public or another agency without permission of the Office of
Inspector General.
                        U.S. SMALL BUSINESS ADMINISTRATION
                            OFFICE OF INSPECTOR GENERAL
                                WASHINGTON, D.C. 20416

                                                                      AUDIT REPORT

                                                              Issue Date: April 29, 2004
                                                              Number: 4-19


To:            Stephen D. Galvan
               Chief Operating Officer
               Chief Information Officer

               Thomas A. Dumaresq
               Chief Financial Officer

                      /S/
From:          Robert G. Seabrooks
               Assistant Inspector General for Auditing

Subject:       Audit of SBA’s Information Systems Controls for FY 2003

       Attached is the audit report on SBA’s Information Systems Controls for FY 2003 issued
by Cotton & Company LLP as part of the audit of SBA’s FY 2003 financial statements. The
auditors reviewed the general and application controls over SBA’s financial management
systems to determine if those controls complied with various Federal requirements.

        General controls are the policies and procedures that apply to all or a large segment of an
entity’s information systems to help ensure their proper operation. General controls impact the
overall effectiveness and security of computer operations rather than specific computer
applications. Application controls are the structure, policies, and procedures that apply to
separate, individual application systems, such as accounts payable, inventory, payroll, grants, or
loans. Application controls help ensure that transactions are valid, properly authorized, and
completely and accurately processed by the computer. Federal requirements for general and
application controls include Office of Management and Budget Circular A-130, Security of
Federal Automated Information Resources and the Computer Security Act of 1987.

        The auditors concluded that SBA continued to make progress in implementing its
information systems security program, but that improvements are still needed. The report
describes areas where controls can be strengthened, such as: (1) entity-wide security program
controls, (2) access controls, (3) application software development and program change controls,
(4) system software controls, (5) segregation of duty controls, and (6) service continuity controls.
The report also provides recommendations for strengthening controls in these areas.
       SBA generally agreed with the auditor’s findings and recommendations with the
exception of finding 3B on SBA’s Credit Reform Models. A determination as to the level of
documentation required for the Credit Reform Models will be addressed in the audit resolution
process.

       The findings in this report are based on the auditors’ conclusions and the report
recommendations are subject to review, management decision and action by your office(s),
in accordance with existing Agency procedures for follow-up and resolution.

Please provide us your proposed management decisions within 30 days on the attached SBA
Forms 1824, Recommendation Action Sheet. If you disagree with the recommendations, please
provide your reasons in writing.

Should you or your staff have any questions, please contact Jeffrey A. Brindle, Director,
Information Technology and Financial Management Group at (202) 205-[FOIA Ex. 6].

Attachments
                      COTTON&COMPANY LLP
                                               auditors • advisors

333 North Fairfax Street • Suite 401 • Alexandria, Virginia 22314 • 703/836/6701 • FAX 703/836/0941 • WWW.COTTONCPA.COM

                                                January 29, 2004


                          AUDIT OF INFORMATION SYSTEM CONTROLS
                        FISCAL YEAR 2003 FINANCIAL STATEMENT AUDIT
                             U.S. SMALL BUSINESS ADMINISTRATION



 Inspector General
 U.S. Small Business Administration

  We were engaged to audit the financial statements of the U.S. Small Business Administration
  (SBA) as of and for the years ended September 30, 2003, and 2002, and have issued our report
  thereon dated January 28, 2004, in which we disclaimed an opinion on those financial statements.
  These financial statements are the responsibility of SBA's management.

  In planning and performing our work, we considered SBA's internal control over financial
  reporting by obtaining an understanding of SBA's internal control, determining if internal control
  had been placed in operation, assessing control risk, and performing tests of control. We limited
  our internal control testing to those controls necessary to achieve objectives described in Office of
  Management and Budget (OMB) Bulletin No. 01-02, Audit Requirements for Federal Financial
  Statements. We did not test all internal controls relevant to operating objectives as broadly
  defined by the Federal Managers' Financial Integrity Act of 1982, such as those controls relevant
  to ensuring efficient operations. The objective of our work was not to provide assurance on
  internal control. Consequently, we do not provide an opinion on internal control.

 Our consideration of internal control over financial reporting would not necessarily disclose all
 matters in internal control over financial reporting that might be reportable conditions. Under
 standards issued by the American Institute of Certified Public Accountants, reportable conditions
 are matters coming to our attention relating to significant deficiencies in the design or operation
 of internal control that, in our judgment, could adversely affect SBA's ability to record, process,
 summarize, and report financial data consistent with management assertions in the financial
 statements.

  This report is intended solely for the information and use of SBA management.
  We would like to express our appreciation to the SBA representatives who assisted us in
  completing our work. They were always courteous, helpful, and professional.


   Very truly yours,

   COTTON & COMPANY LLP


           /S/
   Charles Hayward, CPA, CISA, CGFM
                           AUDIT OF INFORMATION SYSTEM CONTROLS
                        FISCAL YEAR 2003 FINANCIAL STATEMENT AUDIT
                            U.S. SMALL BUSINESS ADMINISTRATION


Cotton & Company LLP was engaged to audit Fiscal Year (FY) 2003 and 2002 financial statements of
the U.S. Small Business Administration (SBA). As part of that work, we reviewed general and
application controls over SBA’s information systems following guidance provided in the General
Accounting Office’s (GAO) Federal Information System Controls Audit Manual (FISCAM). FISCAM
incorporates audit techniques and procedures to ensure adequate coverage of federal requirements and
standards established by:

        •       Computer Security Act of 1987.

        •       Clinger Cohen Act.

        •       Federal Information Security Management Act (FISMA).

        •       Office of Management and Budget (OMB) Circulars A-127 Financial Management
                Systems, and A-130, Management of Federal Information Resources, Appendix III,
                Security of Federal Automated Information Resources.

        •       National Institute of Standards and Technology (NIST) standards and guidelines
                contained in NIST’s Federal Information Processing Publications (FIP Pubs) and in its
                800 series Special Publications.

This report contains the results of our review and recommendations for improvements. Control
weaknesses discussed herein have been reported in SBA’s FY 2003 financial statement internal control
report as a reportable condition.

BACKGROUND

General controls are the policies, procedures, and practices that apply to all or a large segment of an
entity’s information systems to help ensure their proper operation. They impact the overall effectiveness
and security of computer operations, rather than specific computer applications. GAO categorizes general
controls as follows:

        •       Entity-wide security program controls provide a framework and continuing cycle of
                activity for managing risk, developing security policies, assigning responsibilities, and
                monitoring the adequacy of computer-related controls.

        •       Access controls limit or detect access to computer resources (data, program, equipment,
                and facilities), thereby protecting these resources against unauthorized modification, loss,
                and disclosure.

        •       Application software development and program change controls prevent
                implementation of unauthorized programs or modification to existing programs.

        •       System software controls limit and monitor access to powerful programs and sensitive
                files that control computer hardware and secure applications supported by the system.
        •       Segregation-of-duty controls provide policies, procedures, and an organizational
                structure to prevent one individual from controlling key aspects of computer-related
                operations and thereby conducting unauthorized actions or gaining unauthorized access to
                assets or records.

        •       Service continuity controls ensure that when unexpected events occur, critical
                operations continue without interruption or are promptly resumed, and critical and
                sensitive data are protected from destruction.

Application controls are the structure, policies, and procedures that apply to separate, individual
application systems, such as accounts payable, inventory, payroll, grants, or loans. Application controls
encompass both routines contained within the computer program code and policies and procedures
associated with user activities, such as manual measures performed by the user to determine if the
computer accurately processed data. GAO categorizes application controls as follows:

        •       Authorization controls are most closely aligned with the financial statement accounting
                assertion of existence or occurrence. This assertion, in part, concerns the validity of
                transactions and that they represent economic events that actually occurred during a given
                period.

        •       Completeness controls directly relate to the financial statement accounting assertion on
                completeness, which deals with whether all valid transactions are recorded and properly
                classified.

        •       Accuracy controls directly relate to the financial statement assertion on valuation or
                allocation. This assertion deals with whether transactions are recorded at correct
                amounts. The control category, however, is not limited to financial information, but also
                addresses the accuracy of other data elements.

        •       Controls over integrity of processing and data files, if deficient, could nullify each of
                the above control types and allow the occurrence of unauthorized transactions, as well as
                contribute to incomplete and inaccurate data.

SBA’S INFORMATION SYSTEMS ENVIRONMENT

SBA’s financial management information system environment is decentralized. It is comprised of seven
major components operated and maintained by SBA offices and external contractors, as described below.

1.      Loan Accounting System (LAS), a set of mainframe programs that processes and maintains
        accounting records and provides management reports for SBA’s loan programs. The Office of the
        Chief Information Officer (OCIO) is responsible for developing and maintaining LAS system
        software and hardware. LAS is operated and maintained under contract for SBA by UNISYS at
        its Eagan, Minnesota, facility.

2.      Automated Loan Control System (ALCS), a mini-computer system maintained and operated at
        each of SBA’s four disaster area offices. ALCS tracks and processes disaster loan applications.
        After loan approval, it interfaces with LAS to update SBA’s loan records. The Office of Disaster
        Assistance (ODA) operates ALCS and is responsible for developing and maintaining system
        software and hardware.

3.      Denver Finance Center (DFC) systems, a variety of specialized programs developed and
        maintained by the Office of the Chief Financial Officer (OCFO). These programs perform

                                                     2
        various functions, such as exchanging data with SBA’s business partners, processing and
        maintaining disbursement and collection data, and interfacing with LAS.

4.      Joint Accounting and Administrative Management System (JAAMS), a client-server
        financial management system used by all SBA offices for administrative accounting functions.
        The JAAMS server and database were operated and maintained under contract for SBA by
        UNISYS at its Eagan, Minnesota, facility during FY 2003. The JAAMS production server and
        database were relocated to a new third-party vendor, CORIO, Inc. in Tempe, Arizona, on
        September 1, 2003. CORIO has a second facility in California housing the JAAMS test
        environment.

5.      Local- and Wide-Area Networks (LANs and WANs), communications systems maintained and
        operated by all SBA offices. LANs and WANs provide gateways to LAS, ALCS, and JAAMS;
        allow offices to share files and communicate electronically; permit the transfer of data among
        systems; and provide Internet access. OCIO develops and disseminates guidance and procedures
        for operation of these systems and periodically monitors to ensure compliance.

6.      Surety Bond Guarantee (SBG) system, a client-server system developed and maintained by
        OCIO. This system processes SBG program data and exchanges accounting information with
        JAAMS.

7.      Credit Reform and Subsidy Calculation System, a series of SAS and JAVA programs and
        Microsoft Excel spreadsheets developed and maintained by OCFO used for calculating subsidy
        rates supporting SBA’s various direct and guarantee loan programs consisting of the Section 7(a),
        Small Business Investment Company (SBIC) Program, Section 504, and Disaster assistance
        loans, and SBA’s secondary market guarantee program for pooled business loans accounted for in
        the Master Reserve Fund (MRF).

In addition, SBA’s financial management activities rely on systems developed, maintained, or operated by
external parties, including CORIO, Inc., Colson Services Corporation, UNISYS, and the National Finance
Center (NFC), for processing and exchanging data related to functions, such as loan servicing and payroll.
SBA also has acquired lock-box banking services from the Bank of America and other non-continental
domestic banks for processing checks on borrowers’ loan payments; the banks provide this information
electronically to DFC.

FY 2003 RESULTS

SBA continued to improve internal control over its information system environment in certain areas
during FY 2003. Its major accomplishments this year include the following:

        •       Conducted certification and accreditation reviews for additional major applications.
        •       Continued roll out of the Windows 2000 operating system at various field locations.

These accomplishments were, however, overshadowed by:

        •       Delays by SBA's program offices in implementing corrective actions to resolve prior-year
                weaknesses.
        •       Inadequate allocation of resources to support OCIO’s security program to:

                •       Effectively monitor day-to-day security operations.
                •       Promote compliance with established security policies throughout SBA.


                                                    3
In the remainder of this report, we discuss results of our FY 2003 review and the status of management
actions to address prior-year recommendations and new weaknesses identified in FY 2003. We also
present our recommendations for improvements. This report includes the following attachments:

                Number      Title
                  1         FY 2003 Summary of Results
                  2         Status of Prior-Year Audit Recommendations
                  3         Management Comments
                  4         Network Analysis Results (Restricted Distribution and Use)


1.       ENTITY-WIDE SECURITY PROGRAM CONTROLS


Entity-wide security program planning and management provides a framework for managing risk,
developing security policies, assigning responsibilities, and monitoring the adequacy of an entity’s
computer-related controls. SBA’s information system security program planning and management
continued to have areas of weakness. Without an effective management control structure, control
weaknesses throughout the information system and security infrastructure will continue, and specific
actions to address weaknesses will continue to be ineffective. The cause of most control weaknesses
discussed in this report can be traced to the weaknesses discussed in this segment of the report.
We identified the following entity-wide security program control weaknesses during our FY2003
financial statement audit:

     A. SBA’s information system and security program did not provide assurance that the program
        complied with requirements established by federal laws, regulations, and standards. Control
        weaknesses identified in certification and accreditation reviews and audit reports were not
        resolved in a timely manner. Additionally, OCIO did not have procedures in place to ensure the
        effectiveness of controls to preclude reoccurrence of conditions. OCIO technical personnel were
        not provided technical training to enable personnel to successfully carry out their duties and
        responsibilities, and personnel technical training requirements were not strategically aligned with
        SBA's technology strategic plan.

         Further, OCIO was not effectively participating in developing new systems in a timely manner to
         ensure that system controls are properly designed and developed to provide adequate security;
         and data reliability, completeness, and accuracy. OCIO had not developed the procedures to
         fulfill its delegated responsibilities and provide technical leadership on system development
         efforts initiated by other SBA program offices such as OCFO and ODA to ensure system
         interrelationships and interfaces are properly and timely addressed to reduce manual transfer of
         financial information.

         OCIO had not fully resolved 15 conditions identified in prior year audits. This demonstrates that
         SBA is not assigning a high priority to resolving audit recommendations and implementing
         corrective actions, contrary to requirements stipulated in OMB Circular A-50, Audit Follow-up.

         Management claimed that insufficient resources and higher priorities have impeded its ability to
         implement all requirements established by the Computer Security Act, Clinger Cohen, FISMA,
         OMB Circulars A-127 and A-130; and NIST standards.




                                                     4
     SBA received approval to reorganize OCIO effective December 31, 2003. The reorganization
     will create two new offices: E-commerce and Information Security. OCIO will be a direct-report
     to SBA’s Administrator.

     Recommendation 1A: We recommend that the SBA Administrator ensure that sufficient
     resources are provided to enable OCIO to meet its responsibilities under the Clinger Cohen Act,
     FISMA, and OMB Circulars A-50, A-127, and A-130.

     Recommendation 1B: We recommend that the Chief Information Officer revise and enhance
     existing policies and procedures to:

             •     Ensure control weaknesses identified in certification and accreditation reviews and
                   audit reports are resolved in a timely manner and ensure senior management is
                   provided timely information regarding the progress towards implementing
                   corrective actions,

             •     Ensure OCIO monitoring controls are effective to preclude reoccurrence of
                   previously noted weaknesses,

             •     Ensure technical personnel are provided technical training to enable personnel to
                   successfully carry out their duties and responsibilities,

             •     Assure that technical skills are sufficient to meet new technical requirements prior
                   to implementing new hardware and software, and

             •     Ensure OCIO effectively participates in all phases of system development in a
                   timely manner to ensure that system controls are properly designed and developed
                   to provide adequate security; and data reliability, completeness, and accuracy for
                   all significant system initiatives both within and outside of OCIO.

B.   OCIO had not implemented procedures to monitor and report management’s actions to address
     and resolve weaknesses identified during system certification and accreditation reviews, audits,
     and management reviews. OCIO did not monitor system owner implementation of corrective
     actions to ensure that program offices address weaknesses identified during certification and
     accreditation reviews in a timely manner. As a result, OCIO was not fully compliant with
     FISMA, OMB circulars, and NIST standards.

     Recommendation 1C: We recommend the Chief Information Officer, in conjunction with
     system owners:

     (1)     Develop policies and procedures to require system owners to provide plans of action to
             OCIO for correcting weaknesses identified from audits, management reviews, and
             certification and accreditation reviews.

     (2)     Ensure that plans adequately address management actions to resolve or minimize
             weaknesses in the short term while implementing longer term system corrective actions.
             Develop reporting processes to follow-up on system owner corrective action plans.

     (3)     Ensure that sufficient resources are made available to monitor system owner corrective
             action plans.



                                                 5
2.      ACCESS CONTROLS

Physical and logical access controls should be designed to protect an agency’s assets against unauthorized
modification, loss, destruction, and disclosure. During the FY 2003 controls review, we performed
external and internal testing of the network and application access controls. We noted the following
access controls weaknesses:

A.      Controls over the administration of network and financial application accounts were not effective.
        OCIO developed and disseminated Procedural Notice 9000-1406 “Removal of Old Computer
        User Accounts” during FY2003 in response to our prior-year recommendation in this area
        however, this procedural notice is not being followed by all parties. We identified administrators
        not following established policies and procedures when adding or modifying accounts. Although
        OCIO did not have administrative responsibilities for all systems and the network, it was
        responsible for ensuring that all SBA program offices complied with OCIO security policy,
        standards, and requirements.

        We identified the following issues during our review of account administration at SBA
        headquarters, DFC, Sacramento Disaster Area Office, and Fresno Commercial Loan Service
        Center:


                [FOIA Ex. 2]



        Recommendation 2A: We recommend that the Chief Information Officer:

        (1)     Implement procedures to ensure compliance with Procedural Notice 9000-1406
                “Removal of Old Computer User Accounts”

        (2)     Require network security administrators to review all current network accounts to
                identify and eliminate unnecessary accounts and require periodic documented reviews of
                all generic network accounts to ensure that they are authorized and needed.

        (3)     Provide resources sufficient to monitor and assess network administration activities to
                ensure compliance with federal laws and regulations, SBA policies and procedures, NIST
                guidance, and industry best practices.

        (4)     In coordination with program directors, develop procedures for controlling contractor
                personnel access to the network and applications. Procedures should be established to:

                •       Require Contracting Officers’ Technical Representatives (COTRs) to notify
                        security administrators in writing of each contractor personnel needing a network
                        and application account along with privileges to assign to the account.

                •       Require all network and application accounts established for contractor personnel
                        to be established with a renewal or termination date not to exceed one year or the
                        length of the contract, whichever is less.

        (5)     In coordination with OHCM, develop procedures for network and application security
                administrators to receive notification of termination of SBA employees.


                                                    6
     B. [FOIA Ex. 2].


        Recommendation 2B: We recommend that the Chief Financial Officer instruct the Director of
        DFC to establish adequate physical security for routers by either moving the routers to a restricted
        area where access is limited to only authorized individuals, such as the server room, or develop
        compensating controls, such as constructing a security cage.

     C. [FOIA Ex. 2].



        Recommendation 2C: We recommend that the Chief Information Officer:

        (1)       [FOIA Ex. 2]

        (2)       Create new network accounts for non-headquarter network administrators with limited
                  domain administrative privileges to add and delete users and add, delete, and modify
                  objects within office Organization Units.

        (3)       Develop and implement procedures to perform periodic reviews of highly-privileged
                  accounts to assess the continuing need for accounts and privileges.

3.      APPLICATION SOFTWARE DEVELOPMENT AND
        PROGRAM CHANGE CONTROLS

SBA’s application software development and program change controls should be designed to prevent
implementation of unauthorized programs or modifications to existing programs. We noted the
following:

A.      Change control policies and procedures for JAAMS and Financial Reporting Information System
        (FRIS) are not being properly followed at DFC, because required signatures on SBA’s System
        Implementation Order/Change Control forms are missing.

        Recommendation 3A: We recommend that the Chief Financial Officer require that OFM ensure
        that all change control forms are complete before changes are released in the production
        environment and signatures are present for all spaces provided.

B.      OCFO’s Credit Reform Models did not comply with change control policies, procedures and
        documentation requirements in FASAB Technical Releases No. 3 and No. 6 or SBA system
        development and program change control policies and procedures. This occurred because:

              •   Actual changes to the formulas within Credit Reform Models were not tracked,
              •   Change policies to the models were informal and were not rigorously followed,
              •   Computations could not be reperformed, and
              •   Documentation needed to support computations did not exist.

        Federal Financial Accounting and Auditing Technical Release No. 3: Preparing and Auditing
        Direct Loan and Loan Guarantee Subsidies under the Federal Credit Reform Act of 1990
        (FCRA), also broadly requires agencies to maintain internal controls over models in each of the
        following categories:

                                                     7
            •   Control environment
            •   Risk assessment
            •   Control activities
            •   Information and communication
            •   Monitoring

        The OIG released Audit Report No. 3-39, Monitoring of SBA’s Implementation of the Disaster
        Credit Management System in September 2003; this report identified OCIO’s non-compliance
        with its SDLC policy and procedures relating to OCIO’s lack of involvement with new systems
        being developed.

        Recommendation 3B: We recommend that the Chief Financial Officer formalize the change
        control, testing, acceptance, documentation standards, and validation procedures for the Credit
        Reform Models to conform with FASAB Technical Release No. 3 and No. 6 and SBA system
        development and program change control policies and procedures.

        Recommendation 3C: We recommend that the Chief Information Officer develop the means to
        actively participate in all phases of system development efforts within the agency.

4.      SYSTEM SOFTWARE CONTROLS

Properly designed system software controls limit and monitor access to programs and files that control
computer hardware and protect applications. We identified security control weaknesses with the network
operating system that reduce the effectiveness of controls to protect network operations from
unauthorized activities from internal sources.

OMB Circular A-130, Appendix III, requires agencies to establish and implement adequate technical
security controls to secure and safeguard data, software, and hardware from theft, misuse, alteration, and
unauthorized access. Additionally, NIST and the National Security Agency (NSA) have developed
standards for securing Windows 2000 environments.

A.      We conducted a scan of SBA’s network to identify and assess the level of risk using a
        vulnerability scanning tool to identify SANS (SysAdmin, Audit, Network, Security) Institute
        "Top 20" security vulnerabilities. Our scan assessed whether SBA network servers had been
        properly configured, and network operating system software had been updated with vendor
        patches designed to properly address known vulnerabilities. A detailed breakdown of specific
        weaknesses is in Attachment 4.

        [FOIA Ex. 2]



        Recommendations 4A and 4B:

        We recommend Chief Information Officer develop and implement a corrective action plan with
        specific milestones to address network weaknesses identified in Attachment 4 in a timely manner.

C.      In our FY 2002 FISCAM audit, we recommended that SBA enhance policies, procedures, and
        technical capabilities to monitor the network for suspicious activity. SBA agreed with this
        recommendation and initially projected a completion date of September 30, 2002. This date was
        later modified to February 28, 2003.

                                                     8
        Although OCIO installed a network intrusion detection system (IDS) and contracted with a
        vendor to monitor IDS activities and maintain and review all IDS activity logs, OCIO had not
        developed written policies or procedures to establish requirements and ensure performance.

        We commend OCIO for recognizing the need for installing additional server sensor devices on
        the network. OCIO plans to add another 20 sensors during FY 2004. OCIO has not, however,
        performed a security analysis to determine the most effective locations for the sensors.

        Recommendation 4C: We recommend that the Chief Information Officer:

        (1)     Perform a security assessment to determine the most effective placement of the 20 new
                sensors.

        (2)     Revise the IDS vendor’s contract as necessary for performance factors established in
                Recommendation No. 4A of this report.

D.      The FY2002 FISCAM report recommended that OCIO develop the means to test for compliance
        with SBA’s password configuration requirements.

        [FOIA Ex. 2]




5.      SEGREGATION-OF-DUTY CONTROLS

An appropriately designed organizational structure with well-designed roles and responsibilities will
minimize the risk that unauthorized actions take place and are not detected.

OMB Circular A-130, Appendix III, requires agencies to establish and implement controls within the
general control environment and major applications that support the "least privilege" practice. Appendix
III also requires establishing and implementing practices to divide steps of critical functions among
individuals and establishing practices to keep a single individual from subverting a critical process.

GAO’s FISCAM states:

                Management should have analyzed operations and identified incompatible duties
                that are then segregated through policies and organizational division. Although
                incompatible duties may vary from one entity to another, the following functions
                are generally performed by different individuals: IS management, system design,
                application programming, systems programming, quality assurance/testing,
                library management/change management, computer operations, production
                control and scheduling, data security, data administration, and network
                administration.

In addition, FISCAM states that:

                ...it is management’s responsibility to ensure that segregation of duties is established,
                enforced, and institutionalized within the organization.

A.      Proper separation of duties for changes to JAAMS and FRIS had been identified on the System
        Implementation Change Control Form used at DFC; these separation-of-duties controls were not,

                                                     9
        however, fully enforced by management. Individuals were completing more than one area of the
        form, thus subverting controls intended to ensure proper separation of duties. Inadequate
        separation of duties increases the potential for unauthorized code to be implemented and placed
        into production that could result in unauthorized activities.

        Recommendation 5A: We recommend that the Chief Financial Officer instruct DFC
        management to take steps necessary to ensure that individuals are not allowed to complete
        incompatible areas during the system implementation and change process. In addition,
        management should review all change control forms to verify that proper separation is in place.

6.      SERVICE CONTINUITY CONTROLS

Properly designed service continuity controls increase the assurance that normal business operations can
continue with minimal disruption when unexpected events occur.

OMB Circular A-130, Appendix III, requires an agency to establish and periodically test its capability to
continue to provide services within a system based upon user needs and priorities. Furthermore, agencies
are required to establish and periodically test the capability to perform agency functions supported by the
application in the event of failure of its automated support.

A.      SBA cannot ensure that operations can be brought back within an acceptable period of time in the
        event of a disaster or disruption in service. We reviewed service continuity plans and procedures
        at SBA headquarters and field sites at DFC, Sacramento Disaster Area office, and Fresno
        Commercial Loan Service Center. We noted weaknesses in business resumption plans (BRP) and
        service continuity policies and procedures at all three field sites.

        The following are specific exceptions noted by field site:

        •       DFC had not developed or documented a test plan for testing its BRP and had not
                established a target date for completing testing.

        •       The Sacramento Disaster Area Office did not have a documented BRP, its tape backup
                procedures did not meet SBA requirements, and it did not store tapes offsite.

        •       The Fresno Commercial Loan Service Center had not tested or updated its BRP since
                2001 and did not have adequate off-site storage of the office’s backup tapes.

        The SBA Headquarters Continuity of Operations Plan (COOP) was successfully tested in March
        2003. In September 2003, SBA moved the JAAMS general ledger system from Eagan,
        Minnesota, to a new data processing facility located in Tempe, Arizona. We understand the
        JAAMS COOP was tested after fieldwork ended.

        Without adequate service continuity controls, SBA has reduced assurance that it can provide an
        orderly and reasonable recovery process.

        Weaknesses with SBA’s COOP were previously noted in OIG Audit Report No. OIG 02-18. In
        that report, we recommended that the Chief Operating Officer (COO) complete a formal business
        impact analysis in support of COOP and ensure the COOP properly addressed the required
        elements (Recommendation Nos. 6A and 6B). We consider the COO’s actions to date as non-
        responsive. Additionally, at the exit meeting, the CIO stated that OCIO cannot take responsibility
        for all facets of SBA’s disaster recovery and business contingency planning and tests.


                                                    10
Recommendation 6A: We recommend that the Chief Operating Officer develop an agency-
wide business impact analysis that captures all identified needs within stated recovery times. At a
minimum, the analysis would identify:

        •       Critical SBA business processes.

        •       General support systems and major applications that would be needed in a
                recovery process to support critical SBA business processes.

        •       Required recovery time periods.

Recommendation 6B: We recommend that the Chief Operating Officer finalize the draft COOP.
The final COOP should include the following items:

        •       List of personnel and other resources related to the critical system that would be
                needed in a recovery process.

        •       Provisions for plan testing by each field office, disaster office, and headquarters
                at least every 3 years.

        •       Provisions for annual training on plan execution.

        •       Requirements for distribution of the plan to appropriate individuals.

        •       Identification of established contracts with external vendors as necessary to
                support the business continuity plan and disaster recovery plan.

        •       Assurance that all field sites have current, documented, and tested business
                resumption plans in place.

        •       Provisions to inform all field sites of their responsibilities for keeping the
                business resumption plans current and tested.

        •       Provisions to ensure that all field sites adhere to SBA policy requiring backup
                tapes to be stored offsite.

        •       Provisions to ensure that BRPs include procedures for safekeeping critical
                business documents, such as loan files, to ensure their availability.




                                             11
                                                                                                        ATTACHMENT 1A
                                                    SUMMARY OF RESULTS


FY 2003 CFO AUDIT INFORMATION SYSTEMS                                                                SYSTEM
CONTROL REVIEW
                                                                            OCIO      ALCS       JAAMS       DFC      LANs          Credit
            GENERAL CONTROL CATEGORIES AND                                  LAS                                       WANs          Reform
             SPECIFIC CONTROL TECHNIQUES                                                                                            Models

ENTITY-WIDE SECURITY PROGRAM CONTROLS
Risks are periodically assessed.                                              1          1          2          1         1            4
Security program is documented.                                               2          1          2          1         1            4
Security management structure is in place and responsibilities                2          1          2          1         2            4
assigned.
A personnel security policy is established.                                   2          1          2          1         1            4
A security-monitoring program is established.                                 3          2          2          2         3            4

ACCESS CONTROLS
Information is properly classified.                                           1          1          1          1         1            3
User access and privileges are authorized.                                    2          2          2          1         2            2
Physical and logical controls prevent and detect unauthorized                 2          2          2          1         3            2
activities.
Apparent unauthorized activities are monitored and investigated.              2          2          2          1         3            2

APPLICATION SOFTWARE DEVELOPMENT AND
PROGRAM CHANGE CONTROLS
Program modifications are documented, reviewed, tested, and                   2          1          2          1         4            3
approved.
Program changes are documented, reviewed, tested, and approved                 2         1          2          1         4            3
before releasing to production.
Movement of programs in and out of libraries is authorized.                   1          1          2          1         4            3

SYSTEM SOFTWARE CONTROLS
Access to system software is limited.                                         2          2          2          1         2            3
System access is monitored.                                                   2          2          2          1         2            3
Changes to system are authorized and documented.                              1          1          2          1         1            2

SEGREGATION-OF-DUTIES CONTROLS
Incompatible duties are identified.                                           1          1          2          1         1            3
Segregation of duties is enforced through access controls.                    2          2          2          1         2            2
Segregation of duties is enforced through formal operating procedures         2          2          2          1         2            2
and supervisory review.

SERVICE CONTINUITY CONTROLS
Critical data and resources for recovery and establishment of                 1          1          2          1         2            1
emergency processing procedures are identified.
Procedures exist for effective backup and offsite storage of data and         2          2          1          1         2            2
application and system software.
Business contingency and continuity and disaster recovery plans with          2          2          2          2         2            2
hot-site facilities and annual testing are established.

LEGEND
1 – Based on our testing, controls appear to be in place. 2 – Based on our testing, controls appear to be in place, but not fully
implemented. 3 – Based on our testing, controls appear to not be in place. 4 - Control not applicable.

                                                                   12
                                                                                            ATTACHMENT 1B



       APPLICATION CONTROL CATEGORIES AND                                      JAAMS         DCLS          FRIS
           SPECIFIC CONTROL TECHNIQUES

AUTHORIZATOIN CONTROLS
All data are authorized before entering the application system.                    1            1             1
Restrict data entry terminals to authorized users for authorized purposes.         4            4             4
Master files and exception reporting help ensure all data processed are            2            1             1
authorized

COMPLETENESS CONTROLS
All authorized transactions are entered into and processed by the                  2            2             2
computer.
Reconciliations are performed to verify data completeness.                         1            1             1

ACCURACY CONTROLS
Data entry design features contribute to data accuracy.                            1            1             1
Data validation and editing are performed to identify erroneous data.              2            2             2
Erroneous data are captured, reported, investigated, and corrected.                3            2             2
Review of output reports helps maintain data accuracy and validity.                2            2             2

CONTROLS OVER INTEGRITY OF PROCESSING AND
DATA FILES
Procedures ensure that the current versions of production programs and              2            2              4
data files are used during processing.
Programs include routines to verify that the proper version of the computer         1            2              4
file is used during processing.
Programs include routines for checking internal file header labels before           1            2              4
processing.
The application protects against concurrent file updates.                           1            2              4
LEGEND
1 – Based on our testing, controls appear to be in place. 2 – Based on our testing, controls appear to be in place,
but not fully implemented. 3 – Based on our testing, controls appear to not be in place. 4 - Control not applicable.




                                                          13
                                                                                           ATTACHMENT 2

                         AUDIT OF INFORMATION SYSTEM CONTROLS
                                       FOR FY 2003
                      STATUS OF PRIOR-YEAR AUDIT RECOMMENDATIONS


Condition                                Recommendation                                          Status as of
                                                                                                 9/30/03
1 A: SBA has not recognized the          Recommendation 1A: We recommend that the Chief          Partially Complete
NFC payroll/personnel system as a        Human Capital Officer in conjunction with OCIO
major agency application and             designate the NFC payroll/personnel system as a
therefore has not established a          critical system and then proceed to develop an
system security plan, risk assessment,   application systems security plan, risk assessment,
and accreditation or approval for        and accreditation plan for the system.
system use.
 B: SBA has not developed an             Recommendation 1B: We recommended in our                     Closed
Agency-wide integrated security plan     Information System Controls Report for FY 2001
for implementing and integrating         (OIG 02-18) that SBA develop an agency-wide
SOP requirements into OCIO’s             security plan, in accordance with Section 5.8 of the
security program, as required by         Information Technology Architecture Plan. SBA
Section 5.8.1 of SBA’s FY 2000           agreed with this recommendation and projected a
Information Technology Architecture      completion date of September 30, 2003.
Plan.

C: The Office of Human Capital           Recommendation 1C: We recommended in our                      Open
Management (OHCM) has not                Information System Controls Report for FY 2001
defined personnel consequences for       (OIG 02-18) that SBA develop personnel policies
non-compliance with security             and procedures consistent with and in support of
policies and procedures and rules of     defined rules of behavior for general support systems
behavior.                                and major applications. SBA agreed with this
                                         recommendation and initially projected a completion
                                         date of December 1, 2002. This date was later
                                         modified to January 31, 2003.




D: SBA does not obtain signed non-       Recommendation 1D: We recommended in our
disclosure agreements from SBA and       Information Systems Controls Report for FY 2001              Closed
contractor personnel who handle          (OIG 02-18) that SBA develop non-disclosure and
sensitive data.                          security awareness agreements that agency and
                                         contractor personnel will be required to sign. SBA
                                         agreed with this recommendation and initially
                                         projected a completion date of December 1, 2002.
                                         This date was later modified to February 28, 2003.

[FOIA Ex. 2]                             [FOIA Ex. 2]                                                  Open



B: OCIO and OHCM have                    Recommendation 2B: We recommended in our                      Open
undocumented procedures for              Information Systems Controls Report for FY 2001
informing security personnel of staff    (OIG 02-18) that OCIO and OHCM formally
separations. By using informal           document staff separation procedures. SBA agreed
separation procedures, the risk of an    with this recommendation and initially projected a
unauthorized user having access to a     completion date of November 1, 2002. This date was
                                                      1
Condition                                Recommendation                                           Status as of
                                                                                                  9/30/03
system is increased.                     later modified to February 20, 2003.

C: OCIO has not adequately               Recommendation 2C: We recommended in our                        Open
developed and provided technical         Information System Controls Report for FY 2001
training for personnel performing        (OIG 02-18) that SBA develop and implement
security administration activities       technical training for security staff and all network
either at the network or application     and application security administrators. SBA agreed
level.                                   with this recommendation and initially projected a
                                         completion date of November 1, 2002. This date was
                                         later modified to December 1, 2003.

[FOIA Ex. 2]                             [FOIA Ex. 2]                                             Partially Complete




E: The LAS security software             Recommendation 2E: We recommended in our                       Closed
module continues to permit field         Information System Controls Report for FY 2001
office LAS security officers to view     (OIG 02-18) that SBA change the LAS security
each user’s password in the clear,       module to prevent the LAS security administrator
thereby violating the security           from viewing passwords in plain text and to enable
requirement that only the user has       the administrator to re-set user passwords. On
knowledge of the password. LAS           January 31, 2003 SBA reported full corrective action
screen SSDD04, which allows LAS          had been completed.
users to change their own passwords,
was not widely known or used by
SBA employees. Furthermore, LAS
security officers are unable to re-set
user passwords.

3 A: As noted in the prior-year,         Recommendation 3A: We recommended in our                     Partially
although members of the OCIO             Information System Controls Report for FY 2001               Complete
security team were involved during       (OIG 02-18) that the CIO enhance system
JAAMS development, the security          development procedures to ensure that security
team was not involved throughout         personnel actively participate in all phases of system
the entire process. OCIO did not         development. SBA agreed with this recommendation
develop a plan to identify and guide     and projected a completion date of May 30, 2003.
its participation during the JAAMS
development. Additionally, OCIO
did not develop procedures to ensure
that actions were taken in a timely
manner. The Information
Technology Architectural Plan,
Section 4.4.1, Application
Architecture Design Principles, and
Section 5.4, Application
Architecture, require that
applications be designed and
developed to incorporate IT security
                                                        2
Condition                                 Recommendation                                          Status as of
                                                                                                  9/30/03
policies at the beginning and
throughout the System Development
Life Cycle (SDLC).

3 B: As noted in the prior-year,          Recommendation 3B: We recommended in our                      Closed
program changes to the SBG system         Information System Controls Report for FY 2001
were not recorded in the tracking list    (OIG 02-18) that the CIO enhance configuration
of program changes, even though           management procedures to modify the user request
individual documentation was              form to include a check-off and identification block.
available.                                SBA agreed with this recommendation and initially
                                          projected a completion date of August 1, 2002. This
                                          date was later modified to March 31, 2003.

4 A: In our previous audit, we            Recommendation 4A: We recommend that the                Partially completed
recommended that SBA enhance              Chief Information Officer fully implement the
policies, procedures and technical        planned upgraded intrusion detection system and
capabilities to monitor the network       reporting/monitoring tools. Additionally, we
for suspicious activity. SBA agreed       recommend that the Chief Information Officer
with this recommendation and              develop a rule base and procedures for monitoring
initially projected a completion date     network activity and create and document escalation
of September 30, 2002. This date          procedures and timelines for reporting suspicious
was later modified to February 28,        activity to OCIO security. Further, we recommend
2003. [FOIA Ex. 2]                        that Chief Information Officer test escalation
                                          procedures to ensure that responsible personnel
                                          report questionable activities in a timely manner.
Ineffective software monitoring tools
and escalation procedures impair the
ability to detect unusual activities on
the network and provide an intruder
with opportunity and time to gain
unauthorized access to sensitive and
highly privileged accounts. The
result could be unauthorized
modification, destruction, or release
of SBA data. In our previous-year
audit, we recommended that SBA
enhance policies, procedures, and
technical capabilities to monitor the
network for suspicious activity.

                                                                                                         Open
[FOIA Ex. 2]                                   [FOIA Ex. 2]



                                                                                                         Open
[FOIA Ex. 2]                                  [FOIA Ex. 2]




[FOIA Ex. 2]                                  [FOIA Ex. 2]                                               Open




                                                      3
Condition                                 Recommendation                                            Status as of
                                                                                                    9/30/03
E: OCIO has not completed an              Recommendation 4E: We recommend that the                        Closed
interim certification and accreditation   Chief Information Officer develop and implement
prior to implementation of                procedures to require that an interim certification be
Windows 2000.                             completed for operating systems and applications
                                          before implementation. Further, we recommend that
                                          the Chief Information Officer complete a full
                                          certification and accreditation of Windows 2000.

F: The OCIO has not applied the           Recommendation 4F: We recommend that the                        Open
most recent relevant patches to the       Chief Information Officer adhere to the policies
Windows 2000 operating system.            previously developed and apply all relevant
While OCIO has developed                  appropriate patches necessary to bring Windows
procedures related to obtaining,          2000 up to the current patch version as recommended
testing and applying software patches     by the vendor.
as they are released, these procedures
are not being consistently followed
G: Administrators and security            Recommendation 4G We recommended in our                         Open
personnel are not adequately trained      Information System Controls Report for FY 2001
to allow them to fully understand         (OIG 02-18) that OCIO provide appropriate training
their responsibilities and handle         and periodic retraining to security personnel and
possible security violations.             administrators to allow them to perform security
                                          responsibilities effectively. SBA agreed with this
                                          recommendation and projected a completion date of
                                          March 31, 2003. Therefore, we are making no
                                          recommendation at this time.

A: We noted an instance in which          Recommendation 5A: We recommend that the                       Closed
system programmers have access to         Chief Financial Officer either restrict programmer
the development environment as well       access to the production environment and preclude
as the production environment.            programmers from independently installing new
Specifically, we noted the SBA            software or develop alternative control procedures to
Office of Financial Systems (OFS)         manage the risk of developers having access to the
programmers have access to the            production environment.
JAAMS production environment.
Furthermore, we did not note any
compensating control to this
segregation-of-duty issue.

B: Several district office and            Recommendation 5B: We recommended in our                       Closed
servicing center LAS security             Information System Controls Report for FY 2001
administrators continue to have LAS       (OIG 02-18) that SBA preclude LAS security
user accounts for themselves in           administrators from establishing individual user
addition to their highly privileged       accounts for themselves. SBA responded that certain
administrator accounts.                   LAS security administrators cannot be precluded
                                          from establishing individual user accounts for
                                          themselves due to the size of the offices where they
                                          work and that performing security administrator
                                          functions are a collateral duty. SBA implemented
                                          LAS program edits to prevent the same user ID from
                                          performing multiple functions on the same loan.
                                          Therefore, SBA has accepted the risk of allowing
                                          certain users to perform inherently conflicting duties.




                                                       4
Condition                                 Recommendation                                           Status as of
                                                                                                   9/30/03
A: SBA has not completed a formal          Recommendation 6A: We recommend that the                       Open
business impact analysis in support        Chief Operating Officer develop an agency-wide
of its COOP. Additionally, the             business impact analysis that captures all identified
COOP is still in draft stage.              needs within stated recovery times. At a minimum,
                                           the analysis would identify:
                                                 •    Critical SBA business processes.
                                                 •    General support systems and major
                                                      applications that would be needed in a
                                                      recovery process to support critical SBA
                                                      business processes.
                                                 •    Required recovery time periods.

6 B: SBA’s current draft COOP does        Recommendation 6B: We recommend that the                       Open
not contain other critical elements of    Chief Operating Officer follow the formal process
a COOP.                                   outlined above, make changes to the current COOP
                                          as necessary, and finalize the draft COOP. The final
                                          COOP should include the following items:
                                                  •   List of personnel and other resources
                                                      related to the critical system that would
                                                      be needed in a recovery process.
                                                  •   Provisions for annual plan testing.
                                                  •   Provisions for annual training on plan
                                                      execution.
                                                  •   Distribution of the plan to appropriate
                                                      individuals.
                                                  •   Identification of established contracts
                                                      with external vendors as necessary to
                                                      support the business continuity plan and
                                                      disaster recovery plan.

7 A: SBA's mainframe computer             Recommendation 7A: We recommended in our                       Open
operations disaster recovery hot-site     Information System Controls Report for FY 2001
test did not include a test of the        (OIG 02-18) that OCIO revise current contractual
communication linkage between             agreements with its communication supplier to
headquarters and the hot-site facility.   include setting up a temporary dedicated line
                                          between headquarters or a major business center and
                                          the hot-site mainframe recovery facility in the event
                                          of a problem. OCIO agreed with this
                                          recommendation and projected a completion date of
                                          July 1, 2003.

7 B: Weak mainframe computer              Recommendation 7B: We recommended in our                       Open
operation control increases the risk of   Information System Controls Report for FY 2001
lost LAS data and data processing         (OIG 02-18) that SBA enter into an agreement with
capability and hinders SBA’s ability      the third-party mainframe service provider to correct
to carry out its daily functions. We      identified weaknesses and allow periodic reviews of
identified physical and management        controls by SBA representatives. SBA agreed with
access control weaknesses with the        this recommendation and projected a completion date
mainframe computer data processing        of March 31, 2003.
center and computer room.
Specifically, we identified the           We also recommended in our Information System
following conditions:                     Controls Report for FY 2001 (OIG 02-18) that SBA
                                          continue to pursue with the General Services
                                          Administration a requirement for the third-party
                                                       5
Condition                                Recommendation                                           Status as of
                                                                                                  9/30/03
Facility management has not              mainframe service provider to undergo an annual
established internal control to ensure   SAS 70 type of audit of its data processing facility
that:                                    and make audit results available to SBA. SBA
                                         agreed with this recommendation and projected a
     •   Console logs are reviewed       completion date of August 31, 2005.
          on a regular basis.
     •    Only current employees
          have console user accounts.
     •    Console account passwords
          comply with SOP 90-47.

8 A: Only authorized transactions        Recommendation 8A: We recommend that the                       Closed
should be entered into the application   Chief Financial Officer in conjunction with OCIO
system and processed by the              develop rules of behavior for JAAMS and update the
computer.                                application security plan.

A written authorization (certification
and accreditation) to operate JAAMS
was not completed until December
2002. Also, application-specific
rules of behavior do not exist. The
JAAMS security plan, written during
development, has not been updated.


B: A formal business recovery plan       Recommendation 8B: We recommend that the
for JAAMS does not exist.                Chief Financial Officer in conjunction with OCIO               Closed
                                         develop a JAAMS-specific business continuity plan,
                                         communicate plan requirements to all impacted
                                         employees, contractors, and vendors and update
                                         underlying service-level agreements to reflect those
                                         requirements.


D: All authorized transactions should    Recommendation 8J: We recommend that the Chief                 Closed
be entered into and completely           Financial Officer create and implement policies and
processed by the computer.               procedures to research and resolve all items
                                         outstanding in suspense, rejection, and error accounts
Three suspense files have unresolved     older than 60 days.
transactions over 30 days old. The
most significant of these was the
accounts payable suspense file with
over 1,000 unresolved transactions
worth over $1 million.

E: SBA inadvertently issued four         Recommendation 8K: We recommend that the                       Closed
duplicate payments to grant              Chief Financial Officer ensure that formal
recipients. The funds were later         documented procedures exist to eliminate the re-
identified and retrieved. The            occurrence of duplicate payments.
duplicate payments appear to have
been caused by a lack of documented
procedures relating to a specific
occurrence in the accounts payable
daily close process. During the close
process, SBA attempted to cancel a

                                                      6
Condition                                Recommendation                                         Status as of
                                                                                                9/30/03
batch accounts payable submission.
When the submission was canceled,
four payments were still processed.
SBA personnel were unaware that
these four payments were processed.
This error could have been
immediately identified with
documented procedures instructing
the employee to verify that no
payments were processed. SBA does
not, however, have documented
procedures on how or what to do
when a batch submission is cancelled
in the accounts payable module. We
have been informed that procedures
have been verbally updated to ensure
that duplicate payments are not
processed again through the accounts
payable close process.

F: Funds availability in the JAAMS       Recommendation 8L: We recommend that the                     Closed
budget module is erroneously             Chief Financial Officer provide training and
fluctuating when end users input         strengthen edits and validations related to funds
incorrect transaction codes. This        availability and related procurement and accounts
error appears to be partially caused     payable transaction codes to prevent the “movement”
by inadequate end-user training and      of funds availability.
incomplete edit and validation
checks.

G: Cancellation or final closure of a    Recommendation 8M: We recommend that the                     Closed
document is designed to cause the        Chief Financial Officer follow up with Oracle to
related commitment or obligation to      resolve the issue of funds not being released when a
reverse, and funds to become             document is cancelled.
available once again. This does not,
however, always happen. Therefore,
in such cases, the general ledger must
be fully researched and corrected.

H: The OCFO has not applied the          Recommendation 8N: We recommend that the                     Closed
most recent patches to JAAMS .           Chief Financial Officer adhere to the policy
While OCIO has developed                 developed by OCIO and apply all patches necessary
procedures related to obtaining,         to bring JAAMS up to the current patch version as
testing and applying software patches    recommended by the vendor.
as they are released, these procedures
are not being consistently followed.




                                                     7
         ATTACHMENT 3: MANAGEMENT COMMENTS AND OUR EVALUATION


The Chief Operating Officer, Chief Information Officer, Chief Financial Officer, and Chief Human
Capital Officer provided a consolidated response to the draft report. SBA management generally agreed
with recommendations except for recommendations 3B. We have incorporated their comments in this
report as appropriate and included their comments and our evaluation of the comments on the following
pages.




                                                  1
                                                                              ATTACHMENT 3A

                       U.S. SMALL BUSINESS ADMINISTRATION
                              WASHINGTON, D.C. 20416




Date:          April 8, 2004

To:            Robert G. Seabrooks
               Assistant Inspector General for Auditing

From:          Stephen D. Galvan /S/
               Chief Operating Officer/Chief Information Officer

Subject:       Response to Draft Audit of SBA’s Information Systems Controls

   Attached is SBA's response to the draft audit report titled, "Audit of SBA's Information
System Controls," which recommends way to improve Agency information system general and
application controls. Based on GAO's categorization of information system controls, the draft
report reviews and discusses the following areas:

  1.   Entity-wide security program controls,
  2.   Access controls,
  3.   Application software development and program change controls,
  4.   System software controls,
  5.   Segregation of duty controls, and
  6.   Service Continuity Controls.

  In general, SBA agrees with the majority of the recommendations, though not necessarily the
specific recommended corrective action(s) identified in response to cited deficiencies. Once the
OIG publishes the final report, we will include projected timelines for completing the corrective
actions as part of the Agency's response. In the attached response, we have summarized the
essence of each audit recommendation, followed by our response.




Attachment a/s



                                                2
                                                                                  Attachment 3A


                     OIG Recommendations and SBA Responses

Entity Wide Program Controls – SBA should assign higher priority to resolving audit
recommendations, implementing corrective actions, and providing CIO with sufficient resources
to minimize entity-wide security program weaknesses as required in statute.

Recommendation 1A: (1) SBA's Administrator should ensure that sufficient resources are
provided to OCIO to meet its responsibilities under statute and OMB circulars, and (2) CIO
should revise and enhance existing policies and procedures to ensure that proper control
weaknesses are resolved, monitoring is effective, technical training made available, existing skill
sets sufficient to the tasks, and Office of Chief Information Officer (OCIO) participating in all
phases of system development.

Response: SBA agrees with the two recommendations and has already begun to implement
them. For example, the SBA Administrator has reorganized the OCIO to report directly to him,
assigned the security functions to a separate division within the OCIO raising its visibility,
increased the priority assigned to information technology and systems control by designating the
Chief Operating Officer (COO) the dual responsibility of COO and CIO, and supported increases
in staff and budget for CIO security functions. Assigning the dual responsibility of COO and
CIO to one person serves to integrate the IT and security functions more fully into Agency line
programs. Furthermore, the COO co-directs the performance monitoring process within the
Agency (i.e.. Execution Scorecard), which ensures that we place sufficient priority on resolving
control weaknesses and execution of sound internal management principles.

OCIO is also currently revising its policies and procedures that relate to its certification and
accreditation reviews and establishing monitoring systems to track implementation of corrective
actions, offer project management training to all Agency project managers, and negotiate
partnership agreements to define OCIO involvement and commitment with program “owners” at
the earliest phases of system development.

Recommendation 1B: CIO should (1) develop policies and procedures to ensure system owners
fix weaknesses (2) ensure that plans resolve weaknesses and that effective follow up procedures
are developed for corrective action plans, and (3) ensure that sufficient resources are made
available to monitor system owner corrective action plans.

Response: We agree with recommendation 1B and will develop appropriate policies and
procedures. For major weaknesses, we are including corrective actions into the Agency
Scorecard to enable senior management to monitor progress and to ensure corrective actions and
execute them in a timely and effective manner. The COO has assigned a senior staff member to
track OIG and GAO management weaknesses and execution of corrective actions. Together with
implementation of the monthly Scorecard monitoring process, SBA will significantly improve its
internal management processes.


                                                 3
2. Access Controls—ineffective controls over the network administration and financial
   application accounts make SBA vulnerable to unauthorized modification, loss,
   destruction and disclosure.

Recommendation 2A: [FOIA Ex. 2]

Response: [FOIA Ex. 2].

Recommendation 2B: CFO should ensure that the Director of DFC establishes adequate physical
security for routers.

Response: As included in separate response to the draft audit, CFO agrees with the
recommendation and OCIO and DFC will determine the best way to improve the physical
security for the routers.

Recommendation 2C: CIO should (1) [FOIA Ex. 2], (2) create new network accounts for non-
HQ network administrators, and (3) perform periodic reviews of highly-privileged accounts.

Response: CIO agrees with the recommendation to exercise close scrutiny over who continues to
have "domain admin" privileges and special accounts and to continue to review the need. It
should be noted, however, that at this time senior management has determined that the current
59 accounts are necessary to execute required job functions.

3. Application Software Development & Program Change Controls—change control
   policies and procedures are not being followed, which makes SBA vulnerable to
  unauthorized programs or modifications (JAAMS and FRIS)

Recommendation 3A: CFO should require OFM to ensure that all change control forms are
complete before changes are released in the production environment.

Response: CFO agrees with this recommendation.

Recommendation 3B: CFO should comply with change control test, acceptance, and validation
procedures in SBA's SDM for all credit reform models.

Response: As described in separate response to this draft audit, CFO disagrees with this
recommendation for three reasons; namely, (1) OMB has determined that credit subsidy
models are not systems, (2) SBA has a Business Technology Investment Council (BTIC) process
to determine what is a system and what is reported on Exhibit 300s and 53s, and (3) other credit
agencies do not subject their subsidy models to these "systems" requirements.
Recommendation 3C: CIO should develop the means to actively participate in all phases of
system development in the Agency.




                                               4
Response: CIO agrees with this recommendation and has taken the following steps: (1)
Reinvigorated the BTIC process (chaired by the Deputy CIO), where the Agency can prioritize
and approve development of its systems and ensure that the appropriate offices are collaborating
in the development, (2) Ensured that Information Technology efforts are included in the
Execution Scorecard monitoring process, and (3) Developed a partnership modeling process
whereby program offices sign performance agreements with OCIO to establish performance
goals and commitment levels from the onset of systems design efforts.

4. System Software Controls — Security weaknesses with the network, vendor patches,
   and improperly configured servers make SBA vulnerable to unauthorized activities
   from internal sources.

Recommendation 4A and 4B: CIO should implement corrective actions to address weaknesses
identified in Attachment 4 (separate document) and develop policies for monitoring the network
for suspicious activity.

Response: CIO agrees with the recommendations.

Recommendation 4C: CIO should perform a security analysis to determine the most effective
location for server sensors and revise the IDS vendor's contract to comply with recommendations
in this report.

Response: CIO agrees with the need to perform a security analysis, but will determine
appropriate performance and metrics for security related activities, including and needed contract
modifications.

Recommendation 4D: [FOIA Ex. 2].




                                                5
5. Segregation of Duty Controls – SBAA has not fully implemented separation-of-duty
   controls for changes to JAAMS and FRIS used at DFC.

Recommendation 5A: CFO should instruct DFC management to ensure that appropriate
procedures are followed in change processes and that management should review all change
control forms.

Response: CFO agrees with this recommendation and will respond in detail to the OIG upon
receipt of the final FISCAM report.

6. Service Continuity Controls—SBA cannot ensure that disruption in service is
   minimized in event of disaster and has weaknesses in its continuity of operations plan.

Recommendation 6A: COO should develop a business impact analysis that captures all identified
needs within stated recovery times for the Continuity of Operations Plan (COOP) and finalize the
draft COOP.

Response: COO agrees with the recommendation and will do a business impact assessment that
defines SBA critical business processes, identifies general support systems that need recovery
processes, and stipulate required recovery time periods. We will also work with GSA, other
federal agencies, and the OIG to determine the appropriate components of the COOP and to
ensure effective implementation based on guidelines developed in the ongoing OIG audit of our
COOP.




                                               6
                                                                             ATTACHMENT 3B

                            U.S. Small Business Administration
                               Office of the Chief Financial Officer
                                     Washington, D.C. 20416



To:            Robert G. Seabrooks
               Assistant Inspector General for Auditing

From:          Thomas Dumaresq /S/
               Chief Financial Officer

Date:          April 5, 2004

Re:            Response to Fiscal Year 2003 Federal Information Systems Controls Audit
               Manual (FISCAM) report


This is a response to the draft report issued by the Office of the Inspector General (OIG)
"Areas for Improvement in Information System Controls - Fiscal Year 2003 Financial
Statement Audit”.

The Office of the Chief Financial Officer received three recommendations related to Denver
based financial systems (recommendations 2B, 3A and 5A). These recommendations relate to
the physical security, change control, and access to these systems. Generally, we agree with
these recommendations and we will respond in detail upon the receipt of the final FISCAM
report.

Recommendation 3B on SBA's credit subsidy models was for the Chief Financial Officer to
comply with change control test, acceptance, and validation procedures in SBA's Systems
Development Manual for all credit reform models that have been rebuilt or have undergone
significant change. We disagree with this recommendation for three reasons. 1) The Office of
Management and Budget (OMB) recently determined that credit subsidy models are not
"systems" for the purpose of the systems requirements governing change control test,
acceptance, and validation procedure. We agree with OMB's position and think it inappropriate
to classify SBA's subsidy models as a system. 2) SBA has an established Business Technology
Investment Council (BTIC) composed of senior management and board members; the council is
led by the Chief Information Officer/Chief Operating Officer. Through the activities of the
BTIC, SBA determines the classifications of systems which are ultimately reported on SBA's
Exhibit 53 and Exhibit 300 submissions to OMB. The classification of systems is internal to the
agency. 3) Finally, based on our research, other Federal credit agencies do not subject their
subsidy models to these "system" requirements.




                                                 7
We have also reviewed Attachments 1A and 1B that use the green/yellow/red color scheme to
depict the FISCAM audit results. As agreed upon, all the red-colored boxes under the JAAMS
column will be changed to yellow. We have had positive discussions with Cotton & Company
and OIG on the attachments and believe that we should strive for a clearer representation of the
summary results and its associated colors based on the findings in the FISCAM report.

I thank you for the opportunity to respond to the audit report. We are looking forward to
continuing to work with the Office of the Inspector General on future audits.




                                                8
                          Audit of SBA’s Information System Controls
                                         April 15, 2004
                             COO/OCIO/OHCM/OCFO Response
              (Certain Recommendations were renumbered from the Draft Report)
1. Entity-Wide Security Program Controls

Recommendation 1A: SBA agrees with the two recommendations and has already begun to
implement them. For example, the SBA administrator has reorganized the OCIO to report directly
to him, assigned the security functions to a separate division within the OCIO raising its visibility,
increased the priority assigned to information technology and systems control by designating the
Chief Operating Officer (COO) the dual responsibility of COO and CIO, and supported increases
in staff and budget for CIO security functions. Assigning the dual responsibility of COO and CIO
to one person serves to integrate the IT and security functions more fully into Agency line
programs. Furthermore, the COO co-directs the performance monitoring process within the
Agency (i.e., Execution Scoreboard), which ensures that we place sufficient priority on resolving
control weaknesses and execution of sound internal management principles.

Recommendation 1B: OCIO is also currently revising its policies and procedures that relate to its
certification and accreditation reviews and establishing monitoring systems to track
implementation of corrective actions, offer project management training to all Agency project
managers, and negotiate partnership agreements to define OCIO involvement and commitment
with program “owners” at the earliest phases of system development.

Recommendation 1C: We agree with recommendation 1B [1C] and will develop appropriate
policies and procedures. For major weaknesses, we are including corrective actions into the
Agency Scorecard to enable senior management to monitor progress and to ensure corrective
action. The COO meets regularly with each senior manager to discuss OIG suggested corrective
actions and execute them in a timely and effective manner. The COO has assigned a senior staff
member to track OIG and GAO management weaknesses and execution of corrective actions.
Together with implementation of the monthly Scorecard monitoring process, SBA will
significantly improve its internal management processes.

2. Access Controls

Recommendation 2A: CIO agrees with each of the elements in the above recommendation and
will determine the most cost effective, systematic, and ongoing way for implementing them
without jeopardizing daily operations.

Recommendation 2B: As included in a separate response to the draft audit, CFO agrees with the
recommendation and OCIO and DFC will determine the best way to improve the physical security
for the routers.

Recommendation 2C: [FOIA Ex. 2]


3. Application Software Development and Program Change Controls

Recommendation 3A: CFO agrees with this recommendation.

Recommendation 3B: We disagree with this recommendation for three reasons. 1) The Office of



                                                      1
Management and Budget (OMB) recently determined that credit subsidy models are not “systems”
for the purpose of the systems requirements governing change control test, acceptance, and
validation procedure. We agree with OMB’s position and think it inappropriate to classify SBA’s
subsidy models as a system. 2) SBA has an established Business Technology Investment Council
(BTIC) composed of senior management and board members; the council is led by the Chief
Information Officer/Chief Operating Officer. Through the activities of the BTIC, SBA determines
the classification of systems which are ultimately reported on SBA’s Exhibit 53 and Exhibit 300
submissions to OMB. The classification of systems is integral to the agency. 3) Finally, based on
our research, other federal credit agencies do not subject their subsidy models to these “systems”
requirements.

Cotton & Company Comments to SBA Response

Cotton & Company does not agree with the CFO response to recommendation 3B in the Draft
Report. However, Cotton & Company along with OIG modified finding 3B to reflect only the
issues of non-conformance in SBA’s Credit Reform Models identified in FASAB Technical
Release 3 and 6. Cotton & Company removed its characterization of SBA’s credit models as a
"financial system" because such characterization was not essential to support our recommendation.
We do, however, consider SBA’s credit models to fit clearly within OMB’s "financial system"
definition (see Circular A-127).

Recommendation 3C: CIO agrees with this recommendation and has taken the following steps:
(1) Re-invigorated the BTIC process (chaired by the Deputy CIO), where the Agency can
prioritize and approve development of its systems and ensure that the appropriate offices are
collaborating in the development, (2) Ensured that Information Technology efforts are included in
the Execution Scorecard monitoring process, and (3) Developed a partnership modeling process
whereby program offices sign performance agreements with OCIO to establish performance goals
and commitment levels from the onset of systems design efforts.

4. System Software Controls

Recommendation 4A and 4B: CIO agrees with the recommendations.

Recommendation 4C: CIO agrees with the need to perform a security analysis, but will determine
appropriate performance and metrics for security related activities, including any needed contract
modifications.

Recommendation 4D and 4E: [FOIA Ex. 2]


Recommendation 4F: CIO partially agrees with this recommendation. We note for the OIG,
however, that NIB currently does not have the skill set or tools to administer this task on our
network. CIO will review the option of assigning the Security Branch to conduct the network test
on SBA’s environment. Subsequently, NIB will address any identified vulnerabilities.

5. Segregation-of-Duty Controls

Recommendation 5A: CFO agrees with this recommendation and will respond in detail to the
OIG upon receipt of the final FISCAM report.




                                                    2
6. Service Continuity Controls

Recommendation 6A: COO agrees with the recommendation and will do a business impact
assessment that defines SBA critical business processes, identifies general support systems that
need recovery processes, and stipulates required recovery time periods.

Recommendation 6B: We will also work with GSA, other federal agencies, and the OIG to
determine the appropriate components of the COOP and to ensure effective implementation based
on guidelines developed in the ongoing OIG audit of our COOP.




                                                     3
                                                     ATTACHMENT 5


                               REPORT DISTRIBUTION

Recipient                                             Copies


Associate Deputy Administrator for
  Management & Administration                            1

General Counsel                                          3

General Accounting Office                                1

Office of the Chief Financial Officer
  Attention: Jeff Brown                                  1
